CERTIFICATE OF SERVICE
I certify that a true and accurate copy of the foregoing “corrected petition” for writ of
certiorari, and the following Certified Trial Transcript Of Procedural Record, Appendix E: (Tr.
446-470)-(25 pages: FBI agent Rozier (1999), Trial Testimony; Appendix D: ENTRY by First
Appellate District Chief Judge Mock, on August 1, 2019. Sent Certified U.S.P.S. Mail to: The
United States Supreme Court, 1 First St. NE, Washington, DC 20543; and Sent Certified U.S.P.S.
Mailed To: Joseph Deters Hamilton County Prosecutor: 230 E 9th Street Suite 4000, Cincinnati,
Ohio 45202.

Dated: 16 February 2021
Edward Smith #346-408

13

